No. 19-349
INTHE

~upreme '1:ourt of tbe Wniteb ~tates
SWISHER INTERNATIONAL, INC.,

Petitioner,

v.
TRENDSETTAH

USA,

INC. AND TRENDSETTAH, INC.,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 2nd day of October, 2019, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Eric F. Citron

GOLDSTEIN & RUSSELL, P.C.

7475 Wisconsin Ave
Suite 850

Bethesda, MD 20814
(202) 362-0636

ecitron@goldsteinrussell.com

Counsel for Respondents

